<html>
<title> - IMPLEMENTING FEMA REFORM: ARE WE PREPARED FOR THE 2007 HURRICANE SEASON?</title>
<body><pre>[Senate Hearing 110-566]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 110-566
 
   IMPLEMENTING FEMA REFORM: ARE WE PREPARED FOR THE 2007 HURRICANE 
                                SEASON?

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2007

                               __________

        Available via http://www.access.gpo.gov/congress/senate

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs



                     U.S. GOVERNMENT PRINTING OFFICE
36-608 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TED STEVENS, Alaska
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
MARK L. PRYOR, Arkansas              NORM COLEMAN, Minnesota
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
BARACK OBAMA, Illinois               PETE V. DOMENICI, New Mexico
CLAIRE McCASKILL, Missouri           JOHN WARNER, Virginia
JON TESTER, Montana                  JOHN E. SUNUNU, New Hampshire

                  Michael L. Alexander, Staff Director
                    Beth M. Grossman, Senior Counsel
                       Mary Beth Schultz, Counsel
     Brandon L. Milhorn, Minority Staff Director and Chief Counsel
                    Asha A. Mathew, Minority Counsel
               Kate C. Alford, Minority Associate Counsel
                  Trina Driessnack Tyrer, Chief Clerk


                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Lieberman............................................     1
    Senator Collins..............................................     3
    Senator Coburn...............................................    15
    Senator Landrieu.............................................    17
    Senator Coleman..............................................    20

                               WITNESSES
                         Tuesday, May 22, 2007

Hon. Michael P. Jackson, Deputy Secretary, U.S. Department of 
  Homeland Security..............................................     5
Hon. R. David Paulison, Administrator, Federal Emergency 
  Management Agency, U.S. Department of Homeland Security........     8

                     Alphabetical List of Witnesses

Jackson, Hon. Michael P.:
    Testimony....................................................     5
    Prepared statement...........................................    33
    Questions and responses for the record.......................    64
Paulison, Hon. R. David:
    Testimony....................................................     8
    Prepared statement...........................................    43
    Questions and responses for the record.......................    74

                                APPENDIX

Article from the Washington Post submitted by Senator Coleman....    61
``Are You Ready?'' An In-depth Guide to Citizen Preparedness, 
  FEMA, August 2004..............................................   107


   IMPLEMENTING FEMA REFORM: ARE WE PREPARED FOR THE 2007 HURRICANE 
                                SEASON?

                              ----------                              


                         TUESDAY, MAY 22, 2007

                                       U.S. Senate,
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3 p.m., in room 
SD-342, Dirksen Senate Office Building, Hon. Joseph I. 
Lieberman, Chairman of the Committee, presiding.
    Present: Senators Lieberman, Landrieu, Collins, Stevens, 
Coleman, and Coburn.

            OPENING STATEMENT OF CHAIRMAN LIEBERMAN

    Chairman Lieberman. The hearing will come to order. Good 
afternoon, and thank you all for being here.
    Today we will examine the Department of Homeland Security's 
progress in implementing legislation which this Committee and 
the Congress passed last year and the President signed to 
strengthen FEMA and make it the leading force in our Nation's 
emergency preparedness and response system.
    Just this morning, the National Oceanic and Atmospheric 
Administration (NOAA) predicted that this hurricane season, 
which is just 10 days away, will be a very active one. They 
predicted between 13 and 17 named storms and as many as 10 
becoming hurricanes. We have already had our first named storm, 
in case you missed it--subtropical storm Andrea, which formed 
on May 9. And, of course, beyond preparing for and responding 
to natural disasters, we know that DHS and FEMA must be 
prepared to also respond to a possible terrorist attack.
    I want to welcome our witnesses, FEMA Administrator David 
Paulison and Deputy Secretary of the Department of Homeland 
Security Michael Jackson. I want to thank you both for your 
service to our country in two of the most demanding jobs 
anywhere. Your successes are too often taken for granted and 
not noticed. Your failures, real or perceived, are broadcast 
live for all to see. That is a tough assignment, and I want to 
say to you and all of the employees of the Department of 
Homeland Security who work under you that we appreciate your 
hard work every day on behalf of the American people.
    When Hurricane Katrina hit New Orleans and the Gulf Coast 
in August 2005, causing the deaths of over 1,500 people, 
destroying billions of dollars in property, and uprooting 
millions of lives, we all watched. The Nation watched live on 
television as a region drowned and our emergency response 
systems floundered. It was the Department of Homeland 
Security's first large--that is, large to the extent of being 
catastrophic--challenge since it had been formed after 
September 11, 2001. And while the Coast Guard, a proud division 
of DHS, performed valiantly, rescuing thousands of people 
stranded on rooftops, the overall response was chaotic and 
uncoordinated.
    Following the Hurricane Katrina debacle, this Committee, 
Senator Collins as Chair and I as Ranking Member, spent 8 
months investigating what went wrong. We issued what I believe 
was a comprehensive and tough report, concluding that there 
were failures of government at all levels, including FEMA. The 
Committee's report contained many recommendations, a 
substantial percentage of which were adopted last year in the 
Post-Katrina Emergency Management Reform Act of 2006.
    First and foremost, this new law was designed to ensure 
that a newly strengthened FEMA would be the hub of the efforts 
of the Department of Homeland Security, indeed of our 
government, to prepare for and respond to disasters of all 
kinds--natural and terrorist. That means that FEMA would be 
more forward leaning, efficient, and proactive. It would be 
prepared to marshal resources from across the Federal 
Government, the private sector, and nongovernmental 
organizations and move quickly, particularly in those cases, as 
in Hurricane Katrina, when State and local governments are 
overwhelmed. And DHS had to be prepared to fully support the 
efforts of FEMA. That was the goal of the 2006 law. It reunited 
preparedness and response within FEMA so that the officials who 
have to lead our Nation's response are also responsible for 
leading our efforts to prepare. We thought the two naturally 
went together and it was not good management to separate them.
    The new law also makes the Administrator of FEMA the 
principal advisor to the President of the United States for 
emergency management and requires FEMA's senior leadership to 
have the emergency management qualifications necessary for 
their jobs, which was not the case prior to the new law.
    I do want to say that I have been troubled recently, even 
as FEMA begins to implement its new authorities under the new 
law, to hear that there are some people who, notwithstanding 
the reforms that we adopted in the 2006 law for FEMA and DHS, 
are still calling for FEMA to be taken out of the Department of 
Homeland Security. I believe that would be a serious mistake, 
and I personally will do everything I can to stop such a step 
backward if there are legislative attempts to accomplish it.
    The fact is that the 2006 legislation strengthens FEMA 
enormously by both making it a distinct entity within the 
Department of Homeland Security, in the same way that the Coast 
Guard and Secret Service are, and at the same time bolstering 
FEMA's ability to tap into and coordinate with the many other 
preparedness and response assets that exist within the 
Department of Homeland Security. That would be lost if we 
separated FEMA, the agency that we ask to be most involved in 
disaster preparedness and response, from the Department of 
Homeland Security, the Department we created to coordinate the 
Federal Government's protection of the American people from 
disasters. So with today's hearing as part of our ongoing 
oversight of DHS and FEMA, we want to explore what DHS and FEMA 
have done, pursuant to last year's law--which in many ways just 
went into effect a little more than a month ago--to improve 
disaster preparedness and response and what challenges our 
witnesses see ahead that we can work together to fix.
    America needs to know that we are making progress because 
Hurricane Katrina obviously did not just devastate New Orleans 
and the Gulf Coast. It also dealt a body blow to the confidence 
that the American people have in the ability of their 
government to protect them in times of disaster.
    Today, almost 2 years later, we are clearly better off. 
FEMA has made changes that we are going to hear more about 
today. But FEMA continues, certainly in the Gulf Coast region, 
to face post-Katrina challenges, including the challenge of 
helping tens of thousands of Americans still living in trailers 
get back on their feet and bringing aid to communities across 
the Gulf Coast still struggling to rebuild. Obviously, building 
FEMA into the premier Federal emergency response agency our 
Nation needs has not happened and cannot happen overnight. But 
I am confident that today, FEMA within DHS is much stronger 
than it was on September 11, 2001, much stronger still than it 
was on the day in August 2005 when Hurricane Katrina struck the 
Gulf Coast, and I am confident that together we can make FEMA 
yet stronger, as strong as America needs it to be, in the 
months and years ahead.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you, Mr. Chairman. Let me begin my 
comments today by associating myself with your remarks. I am 
baffled that there are those who are proposing that FEMA, the 
new, improved, strengthened FEMA, be moved out of the 
Department of Homeland Security. I have no idea what has 
prompted a renewal of this debate that we went through last 
year and concluded that it was the wrong solution to the 
problems that we faced.
    I also want to point out, Mr. Chairman, as you are well 
aware, as most of the Members of this Committee are well aware, 
that this Committee conducted the most in-depth investigation 
into the flawed response to Hurricane Katrina of any entity. It 
was the only bipartisan investigation. We held 24 hearings; we 
interviewed 400 individuals. We had 85 public witnesses, and we 
reviewed 838,000 pages of documents. And, yes, we actually 
issued subpoenas as well to get the information that we needed. 
And the result was a detailed, lengthy report and comprehensive 
legislation, the Post-Katrina Emergency Management Reform Act, 
which became law in October.
    That Act brought about sweeping changes to the Federal 
Emergency Management Agency. It raised FEMA's visibility, 
protected its status and budget within DHS, gave its 
Administrator a direct channel to the President, restored the 
linkage between preparedness and response, strengthened its 
regional presence, and established multi-agency strike teams to 
promote rapid and effective action. And this was all brought 
about because of the universal dissatisfaction with the 
response of government at all levels to the horrors of 
Hurricane Katrina.
    The 2007 hurricane season does start very soon, on June 1. 
The widely regarded Colorado State University forecast also 
calls for a ``very active season,'' as does the NOAA forecast 
that was released this morning.
    So this is the ideal time for us to ask the question of 
whether or not FEMA is better prepared for potentially 
significant storms. I think the answer to that is obviously 
yes, but it leads to another question, which is: Is FEMA 
sufficiently prepared to respond to a catastrophe?
    While memories of Hurricane Katrina and the approaching 
hurricane season provide the impetus for this very timely 
hearing, the purpose of our reform efforts was broader than 
just the response to hurricanes, or even to natural disasters 
in general. Our legislation explicitly defined FEMA's mission 
as all-hazards, whether natural or man-made, and invoked the 
full range of emergency management functions--preparedness, 
protection, response, recovery, and mitigation. In fact, one of 
the reasons that I am so opposed to moving FEMA out of DHS is 
that it would inevitably require DHS to create a duplicate of 
FEMA to respond to terrorist attacks.
    Our Nation is regularly challenged by natural disasters, 
such as fires, floods, tornados, earthquakes, as well as at 
times by terrorist attacks. So when we ask whether FEMA is 
sufficiently prepared for the 2007 hurricane season, we are 
really posing questions that are proxies for a broader and 
deeper set of concerns.
    FEMA Administrator Paulison, who is here with us today, 
recently testified on the House side that his agency is 
``leaning forward'' and is an ``engaged partner'' with State 
and local agencies. And I have seen this firsthand lately in 
FEMA's response to the Patriots' Day storm in Maine that was 
devastating to the southern coast of Maine. And I am very 
grateful that the FEMA Administrator came to see firsthand the 
damage and has been so responsive to our concerns. I have also 
seen the response to the recent tornados in the Midwest, and, 
again, FEMA has received commendable praise for its quick 
response.
    There have been a lot of improvements. FEMA has a new 
operating agreement with the Defense Logistics Agency. It has 
new capabilities for procuring, delivering, and monitoring 
supplies. None of us will soon forget the shocking, wasteful, 
and sometimes tragic stories of supplies delayed, spoiled, or 
misdirected because of an inadequate logistics system that 
hampered the response to Hurricane Katrina's victims. I am sure 
the Chairman remembers that ice designated for the Gulf Coast 
spent weeks in Portland, Maine, in cold storage, at a terrible 
waste and tremendous cost.
    FEMA is also adopting new controls that will increase 
assistance to victims as well as help curtail fraud and abuse.
    There are other indications of progress. Earlier this 
month, I participated in a New England exercise in Rhode Island 
and Massachusetts. The response was to a hypothetical Hurricane 
Yvette that struck New England, and the difference was 
remarkable. I saw first responders and emergency managers from 
all levels of government working with the National Guard, going 
through training, the kind of joint training that is essential. 
One of the lessons of Hurricane Katrina is never again should 
we have people who are in charge of the response exchanging 
business cards in the midst of the crisis. And I was very 
pleased with what I saw during this New England exercise.
    There still is obviously much to do, but I want to also 
tout a reform that is already paying dividends, and that is the 
reform that we mandated of having Defense Coordinating Officers 
assigned to regional FEMA offices. That has made a big 
difference, and I saw that firsthand.
    Mr. Chairman, there is much more that we need to do. We 
need, for example, to make sure that we heed the caution of 
Florida's emergency management director, who is well known 
nationwide, that we need to increase the funding for the 
Emergency Preparedness Grant Program. That is part of the bill 
that we passed in the Senate, and I know we are going to fight 
for that in conference. And to this day, I recognize from a 
recent trip to Mississippi and my conversations with Senator 
Landrieu and Senator Vitter that residents of the Gulf Coast 
still point to a cumbersome bureaucracy that hinders the 
delivery of aid and reconstruction assistance.
    There is still work to be done in completing the National 
Response Plan and the National Incident Management System. 
FEMA's reorganization is still a work in progress, and 
coordination with other Federal partners still needs to be 
improved. But I think we are seeing considerable progress. We 
are not yet there. We are not yet where we need to be. But I, 
too, Mr. Chairman, am pleased with the results of our 
legislation.
    So I thank you for scheduling this hearing as our witnesses 
come before us to help us explore our readiness to respond to 
the inevitable next catastrophe, regardless of its cause.
    Chairman Lieberman. Thank you, Senator Collins.
    Secretary Jackson, welcome. We look forward to your 
testimony.

TESTIMONY OF HON. MICHAEL P. JACKSON,\1\ DEPUTY SECRETARY, U.S. 
                DEPARTMENT OF HOMELAND SECURITY

    Mr. Jackson. Mr. Chairman, thank you for having me here 
today, and, Senator Collins, Members of the Committee, thank 
you for this hearing and thank you for the time and energy that 
you are spending on these issues. I am grateful for the support 
that this Committee has given to the Department, to FEMA 
particularly, and I am grateful for the sage counsel that was 
embodied in your comprehensive review of the post-Katrina 
actions that we needed to focus on.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Jackson appears in the Appendix 
on page 33.
---------------------------------------------------------------------------
    I would like to offer just briefly by way of introduction, 
and then get to the question-and-answer period, an overview 
from the Chief Operating Officer position at DHS about how we 
are doing on the DHS reform integration and also how we are 
generally positioned relative to emergency management 
capabilities, as the both of you have discussed today.
    I share the fundamental observations, Mr. Chairman, that 
you and Senator Collins have offered. When Hurricanes Katrina 
and Rita hit, we were obviously in clear possession of the 
vision of an agency, of a department, with serious 
deficiencies. These deficiencies were and are longstanding. I 
had a chance to see that firsthand back in the President's 
father's administration at Hurricane Andrew and the aftermath 
of Hurricane Andrew. There are longstanding issues that we have 
not faced up to and that we are now, I think, clearly facing up 
to.
    It would be folly to understand that the same degree of 
change is not needed at the State and local level. My saying 
this is not a ruse to blame others or to deflect blame from our 
Department for our past failures. There is a keen sense of 
awareness at DHS of our shortcomings and an eagerness to 
participate and to improve in doing our work.
    The change is being driven--I should say, though, at the 
start--and thank you for your comments about the FEMA team and 
the DHS team that is supporting them. It is being led by an 
outstanding group of people who have been reviled and in some 
cases dismissed as oafs or worse in the work that they have 
done. And I would say that for me it is a magnificently 
inspiring group of people that have been willing to dig in and 
say, ``This work is too important. Let us fix this, let us do 
it right. We know we have a lot to do. We are not perfect.'' 
And they want to get on with the job, and that is exactly what 
I see at FEMA today.
    My job is to make sure that FEMA has clarity about its 
mission, that they have solid management tools in place to 
work, the right leadership, and that I help with the Secretary 
to clear a path forward for them to do their jobs.
    Twenty-seven months ago, when Secretary Chertoff came in, 
we did not have the tools in place across the Department to 
support an architecture that would allow FEMA to operate in a 
totally effective fashion. I think, today, that we have put in 
place a multiplicity of such tools and very specific reforms. 
They range from getting people in the FEMA regional offices who 
have the right experience and the depth of experience to be 
able to deal with our jobs to this macro architecture of 
support. And I would like to just say a few words about that.
    That architecture starts with the right doctrine, as our 
military colleagues would say. This means that we have to 
support our State and local colleagues. We have a strong 
supporting role, but we are there to support their mission. 
When they are unable to complete the mission, we have to be 
prepared to be an effective partner that fills the gaps. That 
means that we have to call upon maximum flexibility for on-
scene leaders to do their job. We have to have capabilities to 
surge and accommodate all catastrophic incidents, whether they 
be natural or terrorist in their origin, as is clearly the 
case. And we have to lean aggressively into this with 
prepositioning of assets, a faster response cycle time, more 
extensive integration to the State and local teams as they 
communicate and they operate at the local level.
    The tools in our toolkit that have helped us since 
Hurricane Katrina made landfall are a national preparedness 
goal. The interim goal, which is on the table and which is 
materially the same as we will come out with just shortly in a 
matter of days with the final version, is structuring how we 
work with the local and State investments necessary to make 
preparedness work.
    The National Incident Management System (NIMS) provides a 
framework for this, and that, too, has been a product that we 
have delivered and now trained and exercised, too.
    The National Infrastructure Protection Plan (NIPP) picks up 
the means and the tools and the points of connectivity and the 
networks necessary to protect our core infrastructure and to 
respond and recover from attacks against that. That has been 
published since Hurricane Katrina.
    Just yesterday, we released the 17 sector-specific plans 
which outline the process of managing and the progress that we 
have made and the progress forward on how to work to protect 
our infrastructure. Strengthening infrastructure strengthens 
our response capabilities. We continue to invest money in this. 
The Congress has appropriated some $2 billion for interoperable 
communications, for example. We have put a significant focus on 
that since Hurricane Katrina made landfall, and we have just 
slightly less than $1 billion that we will spend in conjunction 
with the Commerce Department this year for further 
strengthening of that work.
    We have programs with buffer zone protection with our 
nationwide plan review of State and local emergency 
preparedness work with assessments in 75 large cities and soon 
to come of all the States of the interoperability 
communications plans. And so I think what we are seeing is a 
substantial collection of additional asset structure strength 
and communications among those who are responsible for 
emergency preparedness.
    I would conclude by just talking briefly about FEMA's role 
within the Department and the Department's responsibilities to 
support FEMA and the mission that it has.
    Hurricane Katrina, unfortunately, revealed weaknesses and 
outright fissures in the unified command of operations within 
DHS. That was a historical relic of DHS's legacy integration--
or the lack thereof. That is gone. That is over with.
    By statute and by Presidential Directive, Secretary 
Chertoff is the principal figure on behalf of the 
Administration to provide coordination and unity of effort 
within the Federal Government regarding national incident 
management and emergency response. Mr. Paulison is his key 
figure in managing the operational components of this, but he 
is supported by and assisted in his work by the rest of the 
Department's activity and by other agencies of the Federal 
Government which operate in conjunction with FEMA.
    Our role is to provide for the entire Federal Government 
and with our State and local colleagues an architecture, a 
plan, a process, a method for dealing with catastrophic 
incidents of all types. This has reached a level of maturation 
that did not exist in August 2005. Our mission has particularly 
focused on eliminating at the Federal level the seams between 
agencies and departments and also between the States and the 
local governments who have to work in harness with each other 
to manage such incidents.
    My final words really are about a topic that both of you, 
Mr. Chairman and Senator Collins, have raised about the courage 
of our convictions in supporting DHS as we intended to create 
it and as it was created by law. Some today look back at 
Hurricane Katrina and are tempted to conclude that DHS is too 
large or that the complex mission is impossible to succeed 
with. The creation of DHS was a bold and gutsy move. Both the 
President and the Congress took those measures to make a place 
where the work of all-hazards protection could work, and that 
was the right decision.
    I know that Mr. Paulison agrees with me that FEMA is made 
stronger by being a part of DHS, by being supported within a 
larger organization that is responsible for our larger 
counterterrorism mission and preparedness for natural 
disasters. I can assure you that what Congress voted to create 
is taking shape and improving. The senior leadership has its 
eye on this thought, which is that we are determined that by 
the end of President Bush's tenure, DHS will leave for the next 
President a strong, successful, and well-managed organization 
to make an effective transition to the new President and the 
new Secretary.
    Why do I say that? It is not that we are not focused on the 
short term and this hurricane season, but we are saying that 
the task ahead is more than we will get done in a day. But 
there is a clear mission. We have made clear progress. We have 
substantial assets. I believe we are prepared effectively for 
the hurricane season. And this is our mission, to make certain 
that this Department is able to perform in a way that will give 
Congress and the American people the confidence that this is 
the right organization for the mission.
    I would urge Congress to stay with the vision that created 
the new FEMA and, before that, the organization of DHS as a 
whole. I am convinced that a failure by Congress to embrace 
DHS's mission as an integrated homeland security organization 
will impel far too many of my 208,000 colleagues at DHS to 
question their own sense of commitment and enthusiasm for the 
mission at hand. The faith of DHS employees in our mission is 
the solid foundation upon which our success is daily driven. We 
need your support, and we will earn it, I hope, in the days 
ahead.
    Chairman Lieberman. Thanks, Secretary.
    Chief Paulison, thank you for being here, and we look 
forward to your testimony.

TESTIMONY OF HON. R. DAVID PAULISON,\1\ ADMINISTRATOR, FEDERAL 
   EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF HOMELAND 
                            SECURITY

    Mr. Paulison. Thank you, Chairman Lieberman, Senator 
Collins, Senator Coleman, Senator Stevens, and Senator Coburn. 
I see Senator Landrieu has stepped out. I have been meeting 
with her on a regular basis, by the way. I do welcome the 
opportunity to come in front of the Committee and talk about 
what we have done for the 2007 hurricane season, quite frankly, 
since your report came out, and how we have implemented some of 
those things.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Paulison appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    We have instituted numerous reforms to improve our ability 
to respond and recover from disasters. In addition to FEMA's 
internal transformation that we embraced to improve this 
agency, the Department of Homeland Security and FEMA have been 
working together closely to implement the adjustments included 
in the Post-Katrina Emergency Management Reform Act. The result 
is a new FEMA that is stronger, more nimble, as you talked 
about, Senator Lieberman, than it was simply just a year ago, 
and that has improved our preparedness posture for the 2007 
hurricane season.
    You can see the impact of these changes in our responses 
this year to the Florida, Georgia, and Alabama tornados, the 
Nor'easter that affected States across the Mid-Atlantic and New 
England, and just a few weeks ago in Greensburg, Kansas. In 
each of these cases, and immediately following the event, FEMA 
was an engaged partner with the State. We deployed operational 
and technical experts, moved logistics and communications 
capabilities, and that was even before a disaster declaration, 
and coordinated with the governor to assist and facilitate a 
Presidential declaration. It was also FEMA that supported and 
helped to facilitate an effective Unified Command system 
amongst the many Federal, State, and local partners involved in 
that response. We call this an ``engaged partnership,'' and 
that is how FEMA is going to operate.
    Our response to these diverse and numerous events across 
the breadth of this great country is evidence of the new FEMA's 
readiness for the 2007 hurricane season. With the first named 
storm of this season, Andrea, behind us and with this year's 
official prediction released today, let's look at our advanced 
preparation, our plan of operation during the storm, our 
improved ability to help with the short- and long-term 
recovery. Local governments will always be the first to 
respond, but FEMA still has an important role to play. The old 
paradigm of waiting for State and local governments to become 
overwhelmed before providing Federal assistance, as we saw in 
Hurricane Katrina, simply does not work. We have to go in as 
partners.
    Under an engaged partnership, FEMA has strengthened our 
relationship with key State and local partners, and also we 
have learned that one size does not fit all approach to 
emergency management. FEMA is helping each State analyze their 
strengths and weaknesses. Thus, our plan is more informed, and 
we can better anticipate specific needs and quickly move to 
support each State with the things that it does need.
    This reorganization has provided additional strength 
through these efforts. The Post-Katrina Reform Act establishes 
10 regional administrative positions. This year, we have filled 
all 10, and not with just anyone but with solid and experienced 
managers, each with 20 and 30 years of hands-on experience in 
emergency management. These recognized leaders with backgrounds 
in firefighting, law enforcement, armed service, and emergency 
management are helping us to build strong relationships with 
our partners on the ground that will be essential for the 
future.
    When a hurricane forms in 2007, FEMA will be ready to act. 
As part of our improved and reformed operations, we have 
prearranged contracts and improved and improving logistics 
systems and other elements already in place to expedite our 
response. FEMA can surge its own teams and assets into an area 
in anticipation of an approaching storm. This forward-leaning 
new FEMA, as evident in our response to the tornado that 
devastated Greensburg, in the first 72 hours coordinated the 
efforts of numerous Federal agencies. FEMA had an Urban Search 
and Rescue team on the ground the same day that Kansas asked 
for the support. Supplies were rolled in within hours. Mobile 
support vehicles moved in early, and I was very proud of the 
response of our team--and not only our teams, but also the 
State and local teams--for doing an outstanding job. The mayor 
and the city manager both lost their homes, and they were there 
working to help get their city back up on its feet. They did an 
outstanding job.
    Once a storm has passed, FEMA is also better organized and 
better prepared to help with the recovery. FEMA's Disaster 
Assistance Directorate has expanded its capabilities to assist 
with mass care, sheltering, debris removal, victim 
registration, including enhanced protections against waste, 
fraud, and abuse, and coordination among the government and 
private sector entities, all moving forward to provide 
assistance.
    Another recent example is FEMA's response to the storms and 
floods that hit the Northeast earlier this year. FEMA had a 
staff on the ground before the rains stopped, evaluating damage 
and registering victims. Mobile assistance centers were 
available in the immediate wake of the storm. The first 
individual financial aid was actually delivered less than 24 
hours after the President signed the first disaster 
declaration. This fast, efficient, multi-state response shows 
the type of action you can expect from FEMA during this year's 
hurricane season.
    In conclusion, we have made real progress at FEMA and are 
much better aligned to prepare for the 2007 hurricane season. 
By leaning further forward to coordinate the Federal response, 
which is more informed through assessments and communications 
with our partners, we can better serve all Americans.
    Today, FEMA has created engaged partnerships with State and 
local governments. We have facilitated and supplied an 
effective unified command across all levels of government. We 
have engaged with hurricane-prone States to gain better 
understanding of their vulnerabilities. We have improved 
logistics and communications capabilities that will improve 
response. And we have enhanced our disaster assistance 
capabilities for recovery efforts.
    Now, we are not done yet. We know we still have a lot of 
work to do. I have already met with Senator Landrieu several 
times, and I know there is a significant amount of bureaucracy. 
And my goal under my tenure as the FEMA Administrator is to 
make sure that we can remove a lot of that bureaucracy and make 
our system much easier and much more user friendly.
    But if our progress over the past year is any indication, I 
believe we are on the right track to fulfilling our vision to 
become the Nation's preeminent emergency management and 
preparedness agency. I am especially proud of the men and women 
who work at FEMA. They really have put their hearts and souls 
into rebuilding this agency.
    I want to thank this Committee for their support, and I 
look forward to answering any of your questions.
    Chairman Lieberman. Thanks Chief. That was really good 
news. I appreciate the progress report. I understand it is 
early in the history of the new FEMA, but I must say--and 
Senator Collins and I have talked about this before--that in 
this unusual life that we live as lawmakers, there is nothing 
more satisfying than having identified a problem during an 
investigation, trying to create a response to it in law, seeing 
the law through passage and the President signing it, and then 
actually to hear about how it is being implemented. 
Specifically the beefed-up regional offices with the 
interaction of Federal, State, and local officials, including, 
as Senator Collins said, a representative of the Defense 
Department right there, is really a step forward. And, 
obviously, if it had existed at the time of Hurricane Katrina, 
I think the Gulf Coast would have been in a lot better shape. 
So I thank you for what you have reported.
    You mentioned both the tornado in Greensburg, Kansas, and 
the Nor'easter storm earlier this year, just a short while ago, 
and the quick response of FEMA. Talk a little bit, if you 
would, about the role of your regional office and regional 
strike teams in both of those cases. Is that part of why you 
were able to respond so quickly?
    Mr. Paulison. Senator, it is a different philosophy of how 
this agency is going to operate. We are not going to wait for a 
State to start asking for assistance. Now, we are not going to 
come in and take over, and we are not going to step on the 
State. But recognizing what the disaster is and having people 
on the ground that can tell us very clearly what the needs are 
going to be of the State, we can start moving quickly, 
sometimes before the local community or the State can recognize 
exactly what their needs are.
    In the case of Greensburg, Kansas, we saw very quickly the 
entire town was destroyed, so we started moving cell systems 
in, radio systems for the local emergency responders to have 
land mobile radios to talk to each other. We knew they were 
going to need supplies. We knew they were going to need tarps. 
So we started rolling those things in, advising the governor 
that we were doing that, while they were working on the 
declaration.
    We knew they were going to get a declaration just by the 
enormity of the situation, so why sit back and wait for the 
declaration to go through the process and get those papers 
signed before you start moving equipment? So when they needed 
the supplies and equipment and people, they were already there.
    Chairman Lieberman. One of the things that we learned--and 
I suppose it is just common sense, but it is important to say--
during our investigation of Hurricane Katrina is that there is 
a difference between a natural disaster, which I would say the 
tornados in Greensburg and the Nor'easter earlier in our part 
of the country would qualify as, and a catastrophe. This 
characterization does not diminish the impact of those storms 
on people. They were devastating. But there is a difference 
between a natural disaster and what we, in our work on the 
Committee, came to call a natural catastrophe like Hurricane 
Katrina--a 100-year storm--which was beyond what we have seen 
and what FEMA previously has had to deal with.
    So take a moment and try to spell it out for us a little 
more. Are you ready? If one of these hurricanes, God forbid, in 
this 2007 season becomes a catastrophic storm anything like 
Hurricane Katrina, what do you have now that FEMA did not have 
then?
    Mr. Paulison. Quite a few things. One, the report that came 
out of this Committee was extremely helpful in identifying the 
things that simply did not work, and we worked on those very 
carefully to put those in place: A better communications 
system, a much more coordinated logistics type of a system, a 
better ability to register people and track them, having people 
scattered across this entire country and really not having a 
clue who they were, where they were, what their needs were.
    Chairman Lieberman. How about in the early moments of a 
natural catastrophe that is so great that it effectively 
incapacitates State and local government?
    Mr. Paulison. Part of the issue also was not having a good, 
rock solid evacuation plan and an ability to move people out, 
so that if you do have a known event coming in, like a 
hurricane, move people out of the town before the catastrophe 
happens. Then there is nobody there to get injured or pass 
away.
    So we have been working with all the States. Right now, 
particularly in the Gulf Coast, we are doing a tri-state 
evacuation plan. Last year, we just kind of shoved one down 
their throats, working just strictly with Louisiana. But it has 
a major impact on the surrounding States, so we are working 
with all three States there--Mississippi, Alabama, and 
Louisiana--to do a tri-State evacuation plan.
    We are also doing a gap analysis tool across not only the 
Gulf States but all the way from Florida to Maine on looking at 
those issues of what is in place for evacuation, what is in 
place for transportation, what is in place for sheltering, what 
are the gaps, so we can help fill those now instead of waiting 
for a catastrophe to happen.
    We also have the ability that we did not have before for 
the President to do a pre-landfall declaration, where let us 
say if a Category 3, 4, or 5 storm is coming into a Midatlantic 
State or Florida or, God forbid, Louisiana again, we can do a 
pre-landfall declaration and start providing funds and 
equipment prior to the hurricane making landfall. That will 
help the city get much better prepared and the State get much 
better prepared to move in.
    We have put a lot of tools in place just by literally 
stepping back and watching what went wrong with Hurricane 
Katrina, what can we do to mitigate that, if we should get 
another storm of that size.
    Chairman Lieberman. What will the presence of a full-time 
representative of the Department of Defense in the 10 regional 
FEMA offices enable you to do?
    Mr. Paulison. What we did not have during Hurricane 
Katrina--and I think Secretary Jackson can talk about this 
also--is have the mission assignments in place with the 
military understanding exactly what they are going to do and 
what our needs are that we need from the military.
    We had about 14 pre-scripted mission assignments across the 
entire Federal Government before Hurricane Katrina. Last year, 
I had about 44 in place. This year, I will have over 180 pre-
scripted mission assignments. A lot of those are with the 
military. By having those Defense people in each region--and 
also in FEMA headquarters, we have put some of our people at 
NORTHCOM and some of their people at FEMA headquarters. To have 
that relationship so we will get action immediately instead of 
having to negotiate mission assignments, like the Secretary did 
after Hurricane Katrina made landfall, those will be ready to 
move before a storm even hits. That is a tremendous asset for 
us.
    Chairman Lieberman. And as you remember it, as we 
discussed, one of the thoughts about the regional offices is 
that they would prepare more for the kinds of disasters that 
were likely to occur in their region. So I presume that the 
region, for instance, that Kansas is in had a set of plans 
ready to go in case of a tornado, as compared to the Gulf 
Coast, which would prepare more for hurricanes.
    Mr. Paulison. And they did. They had a good plan in place, 
and they responded very quickly to that town. The town was 
totally devastated and did not have a lot of resources itself. 
But the adjunct general who runs the emergency management out 
of the State was in there very quickly, had a lot of equipment 
on the ground, and that was part of the reason, plus the early 
notification--they had 20 minutes before the tornado hit to 
move people into basements--for the low loss of life.
    Chairman Lieberman. Thanks, Chief. My time is up.
    Senator Stevens, as you saw, came by and had to leave for a 
meeting, but asked me to submit two questions for you, Chief, 
for the record, and they are typically direct and tough 
questions from Senator Stevens.
    Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Mr. Chairman, I am sure that you and Senator Coleman will 
remember that the lead-off witness for our investigation was a 
FEMA employee from Region I named Marty Bahamonde, who was the 
first person in New Orleans and, regrettably, the only FEMA 
person in New Orleans prior to the storm. And he happens to be 
a Region I employee, so during this exercise for the 
hypothetical hurricane that struck New England, Mr. Bahamonde 
was one of the participants, and he came up to me and 
volunteered how dramatically better FEMA was organized. And 
this was a very credible report because he essentially was our 
whistleblower who started our hearings off. So I just wanted to 
share that with the Members of the Committee.
    Nevertheless, Mr. Paulison, not all is perfect, and there 
still are areas of great concern, and one of those you have 
touched on very briefly in responding to the Chairman, but I 
want to pursue it with you.
    When I think back on the hearings we had, the hearing that 
was most troubling to me dealt with the failure to evacuate 
those who could not evacuate themselves, particularly frail, 
sick, elderly members of nursing homes. And that to me was such 
a colossal leadership failure at all levels. Certainly the 
Louisiana official who had been assigned responsibility to do 
the evacuation plan, who had just utterly failed to perform his 
responsibility, bears a large measure of the blame, but the 
fact is that our investigation showed that it is not just 
Louisiana that has had flaws in its plans for evacuating those 
who cannot evacuate themselves.
    Please bring us up to date on how FEMA is helping State and 
local governments better plan evacuations. This is an area 
where GAO has been critical of FEMA's efforts and has said that 
they are not sufficient and that evacuation plans for many 
State and local governments--and they are the primarily 
responsible parties here--failed to take into account the 
special needs of non-mobile populations.
    Mr. Paulison. Senator, that is a major issue across this 
country, not just in hurricane States. We have a large elderly 
population. A lot of them are not mobile, and how do you deal 
with those when you have to evacuate those.
    Last year, we worked very closely with Louisiana 
identifying the nursing homes and those types of shelters--some 
can shelter in place--doing a survey of those to see who can 
shelter in place. Do they have the plans in place and things in 
place to do that? And those who cannot, forcing them to put a 
plan together of how they are going to evacuate, where they are 
going to go, and how are they going to get there.
    We are doing similar things in all the hurricane States. We 
are doing, like I said, a gap analysis, and part of that gap 
analysis is just not talking about evacuation but what are you 
going to do with your elderly, what are you going to do with 
your people who are not mobile, what are you going to do with 
pets, and what are you going to do with hospitals. Just looking 
at each of those plans from Texas all the way to Maine, then 
very carefully working with the States to make sure they put 
those plans in place. It is so important that every State has 
those rock solid plans in place to do those things.
    Senator Collins. I think that is absolutely critical. We 
had language in our bill that spoke to the need to have 
effective evacuation plans.
    I want to turn to another area where I still think FEMA 
needs to improve, and that is to ensure that the true victims 
get the assistance that they deserve as quickly as possible, 
but that those who are not victims do not rip off FEMA's 
Individual Assistance Program. We had two hearings on this last 
year where we found very disturbing examples of outright fraud, 
not to mention waste and abuse but outright fraud. And a lot of 
it was caused by FEMA not having in place obvious safeguards to 
verify identity, to verify damage, to ensure that duplicative 
payments were not being made.
    We want to make sure that the money goes to those who 
really need it and is not lost to waste, fraud, and abuse. 
Depending on GAO's and the IG's estimates, our estimate was 
that as much as $1 billion in Federal assistance was lost to 
waste, fraud, and abuse. What steps has FEMA taken to ensure 
that we do not see that kind of looting of the Individual 
Assistance Program in future disasters?
    Mr. Paulison. A major problem during Hurricane Katrina, no 
question about it. FEMA did not have the capability to have 
identity verification to make sure you were not applying for 
benefits more than once. Sometimes some people applied 20 to 30 
times. We have put systems in place that we can now tell you 
are who you say you are and you lived where you say you lived, 
and our Web-based system does not allow duplicate applications 
from one household.
    So we put a lot of systems in place to stop that. It was 
very important that we did that because we simply could not go 
back to the way it was in Hurricane Katrina. And that is, 
again, one of those lessons that we learned that came out of 
this Committee that we have put in place.
    Senator Collins. Perhaps the worst example of that were 
those prisoners who applied for and received rental assistance 
while they were incarcerated. Are you confident that would not 
happen given the safeguards that you now have in place?
    Mr. Paulison. Yes, Senator, I am. We are very confident 
that--now, you are not going to stop 100 percent of the fraud. 
That is just the way any system is going to work. But we really 
feel very comfortable that we can stop a lot of it, and a lot 
of it sometimes was done not intentionally. People got two 
checks and did not report that. We are able to stop that now 
with the identity verification and our Web-based system that 
simply will not allow two applications from one household.
    Senator Collins. Thank you.
    Chairman Lieberman. Thanks, Senator Collins. Senator 
Coburn.

              OPENING STATEMENT OF SENATOR COBURN

    Senator Coburn. Well, thank you, Mr. Chairman, for having 
this hearing. I think it is important for people to hear the 
positive side of FEMA. I had some personal experience with them 
in 19 counties in Oklahoma, eastern Oklahoma this year, and 
although their communication was not always great, the response 
was excellent, and they carried out their mission greatly.
    I also would note my disappointment, again, with the fact 
that OMB obviously held the testimony. We did not get it until 
yesterday evening, so it is hard to prepare, to read your 
testimony, and to have the time to think over the problems that 
we have in front of us. Again, I would ask you to send a 
message. I do not know when you got it to OMB, but the fact 
that we did not get it until the night before the meeting 
violates our rules and is inappropriate for us to do an 
appropriate job.
    I am supportive of the changes that have been outlined and 
accomplished by both Senator Lieberman, Senator Collins, and 
the Committee. But I really want to focus on a couple of things 
on the financial aspects of FEMA and DHS. Basically if you 
could be audited--which you cannot be because they cannot 
complete an audit on you--what the American people would see is 
something similar to Enron accounting. And my question really 
is not blame. I know you are working on that, and we are 
improving every day, and hopefully someday we will get to 
audited financial statements for both FEMA and DHS. But 
basically what I am worried about is the duplication that we 
are going to see as we now combine FEMA with DHS. We have 80 
grant programs at DHS, and the IG has identified 36 Federal 
assistance programs that have the potential to duplicate the 
DHS programs, and I am worried a little bit about the potential 
in those specific grant programs that the IG talked about in 
terms of being duplication from FEMA grants to DHS grants and 
HHS grants, and I am wondering what is happening. What are the 
safeguards that are in place now so that we do not duplicate 
the grants, so that we truly send grant money where it is 
needed, but then we do not turn around and send it again for 
the same thing?
    If you can give me some examples on how you are trying to 
coordinate that rather than the stovepipe, here is DHS grants 
and here is FEMA grants, so that we are not sending money 
twice, foregoing somebody who should be getting it because the 
money has already gone to somebody that is getting it twice.
    Mr. Jackson. Senator Coburn, I will take a first shot at 
that one, and Mr. Paulison can jump behind me if he wants.
    There are no stovepipe grants in the Department. They are 
all run in one coordinated way. DHS has FEMA as its executive 
agent for all of our Homeland Security Grant Programs, and 
those grants are managed out of FEMA. But let me unpack what 
that means for you.
    FEMA has the financial management, the audit, the 
discipline for financial controls and assessments to make 
certain that money is being spent as we said it would be spent 
and that it is being used as we have required by all the rules 
of the grant guidance.
    If I could unpack our grants, we have a large grant program 
for States and a large grant program for cities, major cities, 
and both of those are administered by FEMA under an agreement 
within the Department where we all put the appropriate assets 
to the task to support the grant program.
    The Secretary at the end of the day feels like he owns the 
responsibility to make sure that his Department does not 
stovepipe programs but supports these programs in an effective 
way.
    Senator Coburn. So you are saying there is one system in 
DHS that is responsible for and administers all the non-
disaster grants.
    Mr. Jackson. That is exactly right.
    Senator Coburn. And when did that come about?
    Mr. Jackson. On March 31 of this year, when we moved it by 
virtue of the law that Congress had passed into FEMA and 
administered it that way.
    Senator Coburn. And it is effectively being run at this 
time?
    Mr. Jackson. Exactly.
    Senator Coburn. All right.
    Mr. Jackson. Senator, if I could, there is one point that 
is really important about this that I would just like to make. 
FEMA does not have the subject matter expertise for all of 
those Homeland Security Grants. For example, the risk formula 
that we need to run this program has to call upon our 
intelligence services, it has to call upon our infrastructure 
protection people in the field, it has to call upon the broad 
array of assets in the Department to make a judgment about how 
to define these programs for the maximum impact.
    If you look at our substantial amount of money we spend on 
transportation and infrastructure support, the Coast Guard, for 
example, has the subject matter expertise for port security 
programs. They have a Captain of the Port. The whole program 
revolves around the Captain of the Port and the various 
professional assessments that flow from that area of subject 
matter expertise. For our transit grants, it is the 
Transportation Security Administration.
    So around the Department, Fire Administration, for example, 
inside of FEMA has the subject matter expertise for the Fire 
Grants. So Mr. Paulison is responsible for the financial 
controls and financial management and the distribution of these 
systems and the management of it. But he calls upon, literally 
spread throughout the Department, the multiplicity of assets 
there that will help make these grants effective. And that is 
why the opening comments by both the Chairman and Senator 
Collins about the necessity to draw within FEMA upon assets in 
the Department is very real and tangible when it comes to 
grants.
    Senator Coburn. Let me just sneak in one other question. 
There are two grant programs for interoperability, both 
essentially run through you, both authorized and funded--one 
through the Commerce Committee and one through the Homeland 
Security Committee. Correct?
    Mr. Jackson. Well, not exactly. This is one grant program, 
and Commerce has assigned DHS as its executive agent to design 
the program, to deal with the States, to manage it so that it 
is integrated in an effective way with our Homeland Security 
Grants for States and urban areas.
    Senator Coburn. And how much is that?
    Mr. Jackson. It is this year $1 billion. It is a one-time 
grant program. The ultimate sign-off agreement comes from 
Commerce, and so they have the statutory authorization to 
obligate the funds, and they use this program at DHS to 
accomplish that. We are working hand in glove with each other.
    Senator Coburn. All right. Thank you.
    Chairman Lieberman. Thanks very much, Senator Coburn.
    Senator Landrieu, thank you.

             OPENING STATEMENT OF SENATOR LANDRIEU

    Senator Landrieu. Thank you, Mr. Chairman, and let me begin 
by thanking you and Senator Collins for the work that you have 
done to get us to this point. I did not receive the testimony, 
unfortunately, until too late to prepare the specifics of the 
testimony today. But I was able to receive from the Committee a 
long list of accomplishments that this Committee has achieved 
since Hurricanes Katrina and Rita. And I am pleased to have 
been a part of that, and I do know that FEMA is stronger today 
than it was when Hurricanes Katrina and Rita hit the southern 
coast of Louisiana, Mississippi, and Texas. The question is: Is 
it strong enough? And that is what this hearing and many other 
hearings that will take place on this side and the other side 
of the Capitol in many different committees will continue to 
ask: Is it strong enough to respond to a catastrophic disaster, 
whether that disaster is caused by the collapse of multiple 
Federal levees that should have held and did not, whether it is 
a catastrophic disaster of a terrorist attack of many different 
natures that we could think about?
    And so we have to pursue aggressively our reform efforts, 
and I continue to represent, of course, millions of people who 
are affected daily by the failure of the system to respond to 
this particular large-scale disaster. I am fairly certain, as 
my colleague from Oklahoma said, that FEMA is equipped to deal 
with your regular tornadoes, regular storms. But as the 
Chairman and Ranking Member know, since they have been down to 
New Orleans, Louisiana, and Mississippi, what happened to us 
was a flood of biblical proportions, seven times the size of 
Manhattan, 250,000 homes under water, 20,000 businesses lost, 
and responding to and recovering from this kind of disaster is 
beyond the scope of what this country has attempted to do, just 
way beyond the scope.
    So while things have been improved--I have many questions 
that I am going to submit to the record, but I will ask 
Administrator Paulison: What are the three things that you are 
most proud of having accomplished since you have been there? 
And what are the two or three things that you still firmly 
believe we have got additional work to do?
    The two things you are most proud of accomplishing that you 
think will have the most impact and two things that are on your 
mind that we could focus on to help you with.
    Mr. Paulison. If I had to think of two very quickly, I 
think working with the Secretary and the Cabinet to put 
together a unified command system. One of the biggest failures 
that I saw during Hurricane Katrina was the inability to share 
information from the local community to the State, the State to 
the Federal Government, and inside the Federal Government. We 
have tested the system all the way up, including the 
President's Cabinet. We have used it in smaller instances, but 
the system works. It worked in the first responder world for 30 
years, and now we have it in our entire emergency management 
system.
    I am going to give you three. The other is leadership. I 
only had two of my 10 regional director slots filled, and they 
happened to be two very good people, so I kept those. But I 
have the other eight filled with rock solid people who have 
emergency management experience.
    And then being able to register people and track them and 
developing partnerships with people, like the Red Cross and HHS 
and others that can help us do that so that we do not end up 
with the same mess that we had, quite frankly, with Hurricane 
Katrina that had particularly the biggest impact on Louisiana.
    The things that we do need help with is housing. If we have 
another catastrophic, mass migration, which is what this was, 
the largest migration in the history of this country. How do we 
do a better job of housing people? FEMA should not be in the 
long-term housing business. HUD should be in the long-term 
housing business, and now we are partnering with them to make 
that happen. So I would appreciate support from this Committee 
when we bring this before you of exactly how we are going to do 
this.
    The other is logistics. We are still working on logistics. 
It is much improved over what it was before, and it is much 
improved over last year. We still have a long ways to go to get 
the type of system that I want in place that the business 
community uses every day, and we are working hard to do that. I 
brought in one of the top people out of the Defense Logistics 
Agency, hired him away from them, and brought him in to put our 
logistics system together. And that is really starting to take 
shape, but it is not where I want it to be yet.
    Senator Landrieu. You can most certainly appreciate, given 
your comments about housing, why I am pressing this Congress so 
hard for the 10-percent waiver, which helps us rebuild our 
public facilities which support the rebirth of the city and the 
region. Is there any reason that you would know of that we 
would not be entitled to ask for that waiver given that it has 
been given before?
    Mr. Paulison. You are always entitled to ask for it. Our 
position has been--and I have not had a conversation with the 
Secretary or the President on this lately--that by the State 
being involved financially with the decisions, we have much 
better control over the expenses, making sure they are spent in 
the right way. And that is the position we have had in the past 
with all States.
    Senator Landrieu. But we have waived the 10 percent in the 
past for at least the most recent disasters.
    Mr. Paulison. That is correct.
    Senator Landrieu. And my final question would be about this 
planning. While some of this is too late for us for this time, 
it is not going to be, hopefully, the next time. I am still 
concerned, Mr. Chairman, that we are not investing more money 
in planning, but we are moving money from one pot to another. 
How much money was in the grant program for local planning for 
disasters before Hurricanes Katrina and Rita? And how much is 
available today? Are we $1 billion to the positive or $1 
billion or more to the negative?
    Mr. Paulison. Senator, I cannot give you that off the top 
of my head, but I can get that to you if you submit that for 
the record.\1\
---------------------------------------------------------------------------
    \1\ The response from Mr. Paulison appears in the Appendix on page 
71.
---------------------------------------------------------------------------
    Senator Landrieu. Do we believe it is an increase?
    Mr. Paulison. I do believe that.
    Senator Landrieu. But we do not know what percentage.
    Mr. Paulison. I just do not know what off the top of my 
head, but I know it is an increase. Also, when I took over 
FEMA, there were no operational planners inside of FEMA, and 
now we are hiring a lot of those. We put a planning office 
inside this organization to assist with those types of things, 
and they will be going out to the regions to work with the 
States on planning. But we know that is an important issue, and 
you rightfully brought it up. It is a weakness in the system, 
our planning system, and that is what we are addressing. I just 
cannot give you the figures.
    Mr. Jackson. Senator, I can add just a little bit of a 
gloss to that. In our core Homeland Security Grant Programs, 
planning is an eligible expense, which is to say that when a 
State or a community wishes to use this money for planning 
purposes, they are allowed to do so. I think all of us have 
seen the lesson of Hurricanes Katrina and Rita and know that 
this is an area for more work.
    We have gone out to the 75 largest cities, and we have 
reviewed their planning process, reviewed their preparedness 
measures, and we have issued a report on where that stands. We 
are continuing to engage with them on interoperability, for 
example, all the States, all the territories, all the major 
cities, and a statewide plan is coming soon this fall for 
interoperability of communications.
    So we are trying to do that and to put the training and the 
exercise programs together in ways that are much more robust. 
In the Federal Government, we have created a coordinated 
training program, an exercise program--especially the exercise 
part--with the Defense Department, with DHS, and other agencies 
to be able to take these core catastrophic scenarios and 
operate much more effectively to exercise together.
    Senator Landrieu. OK. And I know that my time is up, but I 
know that our bills have doubled the authorization for these 
grants. But doubling the authorization and appropriating a 
double amount of money are two different things. And I just 
want, Mr. Chairman, for us to make sure on the appropriations 
side that we are actually investing more money for planning 
which could help save not only lives but property, etc.
    Mr. Paulison. Mr. Chairman, if you do not mind, if I could 
mention one more thing?
    Chairman Lieberman. Go right ahead.
    Mr. Paulison. We also have put a lot of money aside for 
catastrophic planning, particularly in Louisiana for another 
catastrophic storm coming in there. We are doing catastrophic 
planning in Florida around the Herbert Hoover Dike around Lake 
Okeechobee and a Category 5 storm coming into Miami, and also 
doing catastrophic planning for the New Madrid Fault.
    So those are new dollars that we have actually set aside 
for this year to do that catastrophic planning, which can be 
applicable across the entire country once we get them done.
    Chairman Lieberman. Thanks very much, Senator Landrieu. You 
made a very good point at the end there.
    Senator Coleman.

              OPENING STATEMENT OF SENATOR COLEMAN

    Senator Coleman. Thank you, Mr. Chairman. What a difference 
leadership makes, both Mr. Chairman and the Ranking Member of 
this Committee, in the work that was done last year and the 
review, investigation, and reports, and clearly leadership that 
is represented at the table. It is refreshing for me to hear 
about engaged partnerships and a forward-leaning new FEMA. And 
I think that is positive.
    I want to look back and then look forward. There was an 
article in the Washington Post\1\ about 3 weeks ago that talked 
about international assistance and a story that out of $854 
million in cash and oil that was to be sold for cash, only 
about $40 million had actually been used. Did we ever figure 
out what happened, whose responsibility, and understanding, as 
Senator Landrieu said, this was a disaster of biblical 
proportion. In my experience as mayor, that 100-year flood 
seemed to happen more than once every 100 years. And so I do 
not want to look at this as just something that happened and we 
never have to deal with again.
---------------------------------------------------------------------------
    \1\ The article from the Washington Post submitted by Senator 
Coleman appears in the Appendix on page 61.
---------------------------------------------------------------------------
    So, two questions. One, did we ever sort out what the 
problem was? And, two, should we have those kind of 
international offers again, would we be in a better position 
now to utilize and to get that money into action?
    Mr. Paulison. We, inside the United States, did not have a 
good system in place on how we accept international donations 
and what we are going to accept, and that was a flaw in our 
system. We have put a good system in place. We have been 
working with the State Department on how we are going to set up 
a system to accept international donations. FEMA will be 
involved with the State Department on what our needs are, what 
we can accept, and what we will not accept.
    A lot of the dollars that were promised, they have not been 
received. We did receive $120 million: $60 million went to the 
Department of Education, I think they have already spent $30 
million of that; the other part went for crisis counseling that 
we distributed, and they are still doing crisis counseling with 
it.
    So the dollars that we received we spent. We distributed--
and I forget exactly what the figure is, but hundreds of metric 
tons of supplies that we did take in: Blue tarps, generators, 
and a lot of other supplies. What we were not able to accept 
sometimes were foodstuffs and things like that.
    So now we are doing a better job of laying out exactly what 
we can accept and what we cannot accept. We can make that known 
to our international partners out there if we do have a 
catastrophic event. That will make our system work much better.
    Senator Coleman. I appreciate that. One of the biggest 
concerns that we heard in our review is about interoperability, 
at the local level, and between local and the Federal level. 
Where are we at today? You talked about unified command system 
logistics. But on the interoperability piece, the communication 
piece, what is your assessment of where we stand today?
    Mr. Paulison. The interoperability issue, we really have 
come a long way. We have a lot of money going to the system. 
The billion dollars from the spectrum sale is now coming into 
the system to be distributed.
    The biggest issue with interoperability is really a 
management issue sometimes more than an equipment issue of how 
we are going to communicate with each other. It can be as 
simple as changing hand-held radios, working out of the same 
command post, or working in a unified command system. The 
technology that exists out there, units like the ACU-1000 that 
can merge five or six different frequencies together in one 
place. Most of the State National Guards have the capability. 
FEMA has the capability with several units around the country 
to move into an area and provide interoperable communications 
like we did in Kansas just recently.
    It is an issue that is quickly becoming resolved. Sometimes 
it is almost a buzz word, ``Well, I do not have 
interoperability,'' but the fact is there is resolution to it 
at the local level also.
    Mr. Jackson. Senator, I would say there are two problems. 
One is operability and the other is interoperability. If you 
are wiped out, like we were in New Orleans and you do not have 
towers and communications systems, you need to be able, for a 
rapid response, to move in those temporary communications 
infrastructures necessary to be able to communicate. And the 
other part of it is what Mr. Paulison has addressed with the 
interoperability investments that we are making around the 
country.
    There are some bright spots. In Texas, for example, they 
have statewide interoperability to the point where people from 
all around the State, emergency responders, can come and talk 
to each other with guaranteed success and proven capabilities 
to do that. I was with the governor recently when he announced 
their accomplishment of getting to this benchmark for the 
State. But there is a lot more investment that needs to be made 
here to make this where we need to be.
    Senator Coleman. And my concern goes back to the uneven 
playing field at the local level. Minnesota has put a lot of 
time and a lot of effort into this issue of interoperability, 
but my concern is if there is an unequal playing field, that 
when a disaster occurs, somebody needs to be there to make sure 
that the playing field is level and that the system is 
operational in spite of States not having achieved the success 
perhaps that Texas and Minnesota have achieved.
    Mr. Jackson. Right. There has been differential investment 
here, and you will see in the fall very detailed progress 
reports and report cards on a statewide basis from all the 
States about where we are. This tool is being used by us to 
drive the investment that we will be making with the $1 billion 
Congress has provided. So we are looking for these disciplined, 
systematic, and clear plans, and you will see it in black and 
white where we stand across the whole country with those.
    Senator Coleman. The confidence of the people is often a 
factor in our ability to do the things that have to be done. 
There were recent surveys that continue to show a lack of 
confidence at the Federal level. At the State level, it 
appeared folks had a high degree of confidence in their local 
responders, but, still, I think it was about three in 10, 30 
percent, had confidence in folks at the Federal level, and that 
number was worse for minority communities.
    Are you addressing that issue? Do you have something in 
place that would spread the word? We are going to hear a little 
bit of it today. What are you doing to reach out to people to 
raise their level of confidence?
    Mr. Paulison. We are doing that with all 10 regional 
directors in place and with very clear direction from me to 
make sure they make those contacts so, like Senator Collins 
said, we are not exchanging business cards in the middle of a 
disaster, telling them what we are doing, showing them what we 
are doing.
    The problem is going to be until we have a major event and 
this agency performs, it is going to be difficult to get over 
those doubts. We lost a lot of confidence during Hurricane 
Katrina. We are rebuilding this agency back again. It is going 
to perform. But I do not expect people to believe me. I expect 
them to see what we actually do, and we have been doing that. 
Every disaster we have had, whether it is in Florida, Georgia, 
Alabama, Kansas, or up in the New England States, FEMA has done 
an excellent job of responding to these disasters, and we just 
do it a piece at a time. And I think eventually we will get 
there.
    Senator Coleman. Actions speak louder than words.
    Mr. Paulison. Yes, sir. Right on target.
    Senator Coleman. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks very much, Senator Coleman.
    We are going to do a second round. Do you have to go?
    Senator Coburn. I just have one question.
    Chairman Lieberman. Go right ahead.
    Senator Coburn. The $1 billion, is that enough to solve the 
interoperable problem?
    Mr. Jackson. No, but it makes a heck of a downpayment on 
top of the $2 billion we have already spent. As Mr. Paulison 
said, really one of the core problems remaining is that we have 
to have the governance structures necessary to make this work. 
This is not necessarily about buying gizmos or all the same 
gizmos for all the same people. It is about making the 
fundamental management decisions about who needs to know what 
type of information and what time sequence and who is talking 
to whom.
    There are bridging mechanisms, technologies that can help 
us take existing tools and link them together. In the places 
where we have seen great success, it has been State and local 
leaders who have a very clear vision and a strong commitment to 
getting the job done. And the places where we need to go a 
little farther, it is a case of sometimes trying to get a 
community together. And even in a single State, you can see a 
diversity there among communities that really get it and get 
all together with the multiplicity of law enforcement and 
emergency managers that have to be connected.
    So that is the part where I would say for the smallest 
investment of money, a little bit of energy and leadership in 
the right way can help us bridge very far where we need to be.
    Senator Coburn. So are you going to need another $1 
billion?
    Mr. Jackson. I am not here to tell you what it is going to 
cost, but I am here to say that this is not going to end the 
problem. We are using our Homeland Security grant dollars for 
this every year. That is where the $2 billion figure comes 
from. Since DHS was created 4 years ago, we have spent $2 
billion on this, and we will spend more in the Homeland 
Security Program this year as well, on top of the $1 billion.
    Senator Coburn. And you realize there is another $1 billion 
in the 9/11 bill that is in conference right now for the same 
issue?
    Mr. Jackson. I have heard stories.
    Chairman Lieberman. Just to give you the latest update, the 
budget resolution that has passed has $400 million to fund the 
first part of the interoperable communications grant program. 
As you know, the $1 billion that you got was the beginning of a 
program which will now flip over into this new program when we 
actually get it authorized.
    We have naturally today talked about preparedness for 
natural disasters because the FEMA reorganization followed the 
terrible performance of FEMA during Hurricane Katrina. But FEMA 
also has very critical responsibilities to lead the Nation in 
responding to a terrorist attack, and, of course, the 
Department of Homeland Security was created in the aftermath of 
September 11, 2001. So I wanted to ask at least one question 
about that.
    The 9/11 Commission, the Kean-Hamilton Commission, said 
that one of the causes of September 11, 2001, was a failure of 
our imagination, which is to say that we could not imagine that 
people could want to do and do what the terrorists did to 
America on September 11. So we have to think about the normally 
unimaginable. A while ago, we asked Secretary Chertoff, what 
was his No. 1 nightmare? His response was a nuclear weapon 
being smuggled into a large American city and detonated by 
terrorists. Yesterday, a reporter told me that he had 
interviewed the director of the FBI and asked him what his No. 
1 concern was. His answer, understandably, was the same thing.
    So let me ask you both, are we ready? God forbid that 
happens, but are we ready to respond in a way that diminishes 
the devastation that would be caused by such an explosion of a 
nuclear weapon in an American city?
    Mr. Jackson. I would say we clearly are better equipped to 
do this mission than before the creation of DHS, before 
September 11, before the focus that has been brought about 
thinking about the awful and catastrophic on a daily basis 
across the government. It will still be a very untidy and 
devastating event if we have the type of attack that Secretary 
Chertoff explained to you in his testimony as his worry, and 
which I certainly share.
    So there is no way to make it a happy day, everybody be 
picked up quickly and dusted off and put back on the road. This 
is one of Mr. Paulison's problems, I think. What has happened 
is we have created an expectation that if anything bad happens 
and if it is catastrophic, this expectation, I think, is even 
more that somehow the Federal Government will come in and swamp 
them immediately and make everything better.
    So what he has to worry about is that there is an 
unreasonable set of dependencies or expectations on what can be 
done by a government, and I would say that is not an excuse for 
the most aggressive and forward-leaning and considerable 
investment in making catastrophic incidents easier to manage. 
But it will not take away the word. ``Catastrophic'' means----
    Chairman Lieberman. No way. I agree. Incidentally, I should 
say what we all know, which is that the Department has 
divisions within it, working alongside law enforcement and the 
new intelligence apparatus through the Director of National 
Intelligence and the National Counterterrorism Center, to 
prevent such actions. And, in fact, they have been prevented, 
most recently with the arrest of six men involved in a plot in 
Fort Dix, New Jersey, but more catastrophically in the arrests 
in the United Kingdom of those individuals who were planning to 
fly that series of planes over to the United States and blow 
them all up in the air before they reached here.
    So, unfortunately, there is already evidence they are 
trying to carry out the extreme and bizarre. It's a big 
question to ask, but let's talk about catastrophes. It will be 
a terrible day, a dark day, but God forbid this happens--is 
FEMA prepared to mitigate the effects of such a nuclear 
explosion set off by terrorists in an American city?
    Mr. Paulison. I can tell you that it is not being ignored. 
We had a major exercise, in fact, last week involving the 
Department of Defense, HHS--every Federal agency played in the 
same type of scenario you just laid out, how we would work 
together. There were a lot of lessons learned out of that 
exercise.
    In the exercise, FEMA was capable of carrying out its 
mission of making sure that we could provide the things that we 
are supposed to provide. We even had classified video 
conferences on how you would make certain decisions or what you 
would do.
    So we are working on these types of things. You know, I 
think the Secretary is absolutely right. With a catastrophic 
event like that, it is going to be a catastrophic event, and it 
is not something you are going to go in and clean up in a 
couple days. There are going to be tens of thousands, maybe 
hundreds of thousands of injuries and fatalities, and where do 
you put people and how do you deal with them. There will be 
some very difficult decisions to make.
    FEMA is not the core agency to deal with those types of 
things, but we are playing our part, and we will perform up to 
the best of our ability.
    Chairman Lieberman. Who is the core agency?
    Mr. Paulison. Well, on the health side, it is going to be 
HHS. The Department of Defense is going to be involved.
    Chairman Lieberman. Right.
    Mr. Paulison. FEMA is going to be involved with a piece of 
it. The Department of Justice will be involved doing the 
investigation.
    Chairman Lieberman. Who will coordinate?
    Mr. Jackson. The Secretary of Homeland Security.
    Chairman Lieberman. The Secretary of DHS.
    Mr. Paulison. He will be the coordinator, yes, sir.
    Chairman Lieberman. I must tell you, I am encouraged that 
you accept at least the possibility of such a scenario and that 
the government is planning for how to mitigate its effects.
    Mr. Jackson. Mr. Chairman, can I just respond real quickly 
on that one?
    Chairman Lieberman. Please.
    Mr. Jackson. To show you the priority that we place on 
exactly what you are asking about, we have created at the 
Department operational planning cells which are drawing staff 
from all the relevant Federal agencies--Defense Department, 
HHS, Energy, Transportation--that are able to accommodate for 
particular matters of growth to the entirety of the Federal 
Government's assets. And we are unpacking the 15 scenarios that 
are part of the National Preparedness Goal to give very precise 
operational plans. This is working out of our Operations 
Coordination Group. It has got very active involvement from 
FEMA and other aspects of the Department.
    The No. 1 plan that we are working through operationally, 
and the first draft is being interagency coordinated as we 
speak, is on this type of nuclear attack in a city.
    Chairman Lieberman. I appreciate that. It is reassuring. I 
thank you for it. Senator Collins.
    Senator Collins. Thank you, Mr. Chairman.
    Secretary Jackson, one of the most significant findings of 
this Committee's investigation into Hurricane Katrina was that 
there was a significant delay in getting support to the States 
and to the local governments because of the way the system was 
set up. Under the system in place at that time, the local 
government had to be overwhelmed and essentially fail before 
the State government would step in. Then the State government 
had to be overwhelmed and fail before the Federal Government 
would step in.
    Senator Lieberman just posed the question about a truly 
significant catastrophe such as a nuclear bomb being smuggled 
into a city. That is a perfect example of a catastrophe that is 
going to overwhelm even the best local government and most 
likely the State Government as well.
    What is DHS doing to not wait until there are failures of 
delivering services at the State and local level before 
stepping in when there is obviously an overwhelming 
catastrophe?
    Mr. Jackson. Senator, this is an excellent question and an 
important point, and I just want to make sure that I have 
rammed the answer home very clearly. We have changed our total 
operating model for how to manage this type of incident based 
upon the results of our failure in Hurricane Katrina. What that 
means is spread across the Department in different ways. You 
have heard the Administrator talking about how we preposition 
goods more aggressively and move them up to the point of 
deployment while we are waiting for the request to come from a 
State if we know that it is likely to be there. Sometimes we 
have actually done that and then had to move them back to the 
warehouse a little bit when it turned out not to be so bad. I 
would rather err in that way, call it an exercise, and then not 
be able to fail if we have the need for the goods.
    So at FEMA, we are moving into that as much as possible. We 
can declare in advance of a known, a pre-known event, a 
disaster before it strikes, like in a hurricane. For an attack 
of a chemical, nuclear, or biological nature, we would 
instantly move the assets that we have into that arena as 
necessary. We would certainly closely coordinate with the 
governor and make sure that we are all operating in a unified 
way, but it would not take a lot of paperwork rigmarole to get 
us up and operating.
    Senator Collins. Mr. Paulison, I noted that you smiled as I 
was asking that question, which makes me think you may want to 
add something.
    Mr. Paulison. No, you were singing my song. That is exactly 
how we are going to operate. It is a different philosophy 
inside this organization, and with the support of the 
Secretary, we are leaning very far forward, just like we did in 
Kansas, moving equipment early, knowing we are going to get a 
declaration, and why wait for the paperwork to be signed before 
we move in. So we have been doing that.
    It has raised some eyebrows inside the organization. We had 
30 years of history here and 30 years of culture, and we are 
changing it. Sometimes it is difficult to change in a few 
months, but we are making headway, and we have a lot of people 
inside of FEMA now who are saying, yes, this is the right way 
to do it, and most everybody is getting aboard with it.
    Senator Collins. Thank you. Secretary Jackson, just one 
final question. I may submit some others for the record. We 
found during our investigation considerable confusion between 
FEMA and DHS as to who performed what role. We also found that 
there was an astonishing lack of situational awareness that 
added to that confusion.
    What has DHS done to better clarify the roles within DHS? 
We have talked a lot today about coordination with State and 
local partners, coordination with other Federal agencies. But 
within DHS, what has been done? And, second, what has been done 
to ensure a far better level of situational awareness than we 
saw during Hurricane Katrina?
    Mr. Jackson. In DHS, we have just faced up to what we need 
to do to be able to operate in the fashion that we are able to 
do today. And we have defined our roles and responsibilities in 
very clear, unambiguous ways. The management team meets weekly 
with each other from the seven operating components of the 
Department. There is no core ambiguity about how we are going 
to operate as a Department, and there is ample opportunity for 
the experienced leadership team to be able to go directly to 
the Secretary or directly to the Deputy and resolve any 
question of this nature quickly.
    We have created an Operations Coordination Group as part of 
the Secretary's initial assessment of the deficiencies inside 
the Department. That is now up and effectively functioning, and 
that is a substantial enhancement to being able to make sure 
that we are connecting to each other on an operational basis, 
on a daily basis, so that we have a surge capacity to jump into 
a big circumstance.
    So how do we assure ourselves that we have situational 
awareness? It occurs at multiple levels, and it gets integrated 
and fused in our National Operations Center, which is managed 
by the Operations Coordination head. That work leverages and 
pulls a major pipeline of information from FEMA during the 
course of a FEMA-centric event. But if it were another type of 
event, it would pull from other agencies with greater volume.
    For example, we have established a team of people both at 
FEMA and within ICE to be able to swamp into an area quickly 
with communications devices using satellite links, with cameras 
and video and other capabilities to be able to show clearly 
what is happening in that Superdome with these people. Is there 
a problem here or is there not?
    We have put a common operating platform together inside the 
National Operations Center to fuse data from literally 
thousands of different points into a common template that can 
be put up and understood easily as to the major functioning 
elements of the response and recovery.
    We have created a new Operations Center for FEMA and are 
using better technology tools, better doctrine about how to 
communicate, more extensive training of people in this process. 
This is literally a question we could talk for many hours on, 
but you are hitting on an indispensably important part of 
making a new FEMA, a new DHS, which is integrated where the 
management team all knows what their role is and where they 
want to work together.
    I think as your own hearings proved, there were not such 
common points of understanding about how the Department 
operated and its components related to each other on the day 
that Hurricane Katrina made landfall. That is over with.
    Senator Collins. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks again, Senator Collins. Senator 
Coleman.
    Senator Coleman. Thank you, Mr. Chairman.
    One of the exchanges that I found rather disturbing when we 
did our Hurricane Katrina review, I think it was a FEMA witness 
who made the comment that it was not an issue of whether there 
was enough food or supplies. It was in the pipeline. They just 
did not know where it was. I think my comment was, you should 
have hired FedEx or given a call. Just touching on logistics, 
if there are supplies in the pipeline today, do we have the 
computer capability, the capacity, much like any basic shipping 
company has today, to know exactly where things are and how 
long it is going to take to get them?
    Mr. Paulison. We do. We have put a system in place called 
total asset visibility, and it is not just tracking the 
vehicles. It is the whole entire ordering system from the time 
the order is placed in the field until it goes through the 
regional office and to who is actually going to deliver 
supplies and tracking that real time.
    We have the capability of tracking our vehicles that come 
out of Denton, Texas, and out of Atlanta. We do not have it in 
the rest of the country yet, but we have it there. But, also, 
we are looking at very clearly--you mentioned FedEx, using what 
we call the 3PL, third-party logistics, using other people's 
tracking systems instead of just continuing to purchase the 
stuff ourselves. So that is a piece we are looking at for the 
upcoming hurricane season into 2008, is how do we tap into that 
private sector out there that already does this and does it 
very well, as opposed to trying to re-create the wheel inside 
of FEMA. But our logistics system now is light years--and I 
mean light years--ahead of where it was 2 years ago.
    Mr. Jackson. Senator, I agree with that, but I would tell 
you we are not where we want to be. And when Senator Landrieu 
asked the Administrator what one of his worries was, this was 
one of his worries. So we have gone from the Stone Age to a 
moderately effective set of tools. We sure as heck have another 
major jump to make, but the good news about this, it is not 
rocket science to do it, as you have indicated. This is about 
fusing commercial, off-the-shelf products that are used in the 
trucking industry and the logistics industry and the air cargo 
world.
    The Defense Department learned how to do this between the 
first Gulf War and the second Gulf War, and what they were able 
to do at TRANSCOM and at Defense Logistics Agency by leveraging 
those commercial in-transit visibility tools and fusing them 
into their planning and management systems is a lesson that we 
are going to borrow. We are not going to reinvent the wheel. We 
are going to leverage existing technology in the commercial 
world. We are going to have end-to-end visibility, and you will 
see between this year and next year another major change and 
growth spurt in how FEMA manages this.
    So it is a good example, Mr. Chairman, of something that we 
are not trying to put a little smiley face on in front of our 
microphone and say it is all done, forget about it, do not 
bother me about this. This is an area where we have to invest 
more.
    Senator Coleman. I think it is important. I appreciate the 
self analysis. I think it is at times frustrating to the 
average citizen. You go to an ATM machine and you get your 
instant cash. You order a pair of shoes, and they are not there 
that day, you give Johnston & Murphy or somebody a call, and 
they tell you exactly where they are and how long it will take 
to get there. And here we have a government that spends 
billions and obviously was not there in Hurricane Katrina.
    So I appreciate the focus, and hopefully we will be part of 
the 21st Century before the next natural disaster occurs.
    There have been recent reports about lack of National Guard 
strength. Some say strength is being depleted by international 
commitments, the war in Iraq. I would be interested in the 
assessment of either of you gentlemen as to the state of 
National Guard readiness today should there be a major 
terrorist attack or natural disaster.
    Mr. Jackson. I had lunch last week with the General who 
runs the National Guard, Steve Blum, and his assessment is that 
for our needs, they are prepared and they are ready. I know 
this because we have 6,000 National Guard troops at the 
Southern border on an extraordinary mission in support of CBP. 
When we have a catastrophic event, there will be many claims 
upon the National Guard. They are also overseas fighting a war 
now. But we have found and the National Guard leadership 
believes that they will be able adequately to support us in the 
missions that we expect FEMA to need to draw upon during the 
course of this hurricane season.
    Senator Coleman. This ``Are You Ready?'' publication is an 
in-depth guide to citizen preparedness.\1\ For a government 
document, it is actually pretty simple. It is pretty good. An 
average family, a Mom and Dad could look at this, and it deals 
with everything from a radiological disaster to extreme heat, 
extreme cold. We do not worry about the--actually, it is hot in 
Minnesota on occasion. But it is actually a pretty good 
publication.
---------------------------------------------------------------------------
    \1\ The report entitled ``Are You Ready?'' appears in the Appendix 
on page 107.
---------------------------------------------------------------------------
    I have a copy of it. How does the average citizen get this? 
Can you get it in public libraries? What are you doing to make 
this available? Because this goes to my confidence issue, just 
to have people know that we are thinking about this and we are 
connecting with them better than we have in the past. Is there 
a plan or program to make this available? \2\
---------------------------------------------------------------------------
    \2\ The response from Mr. Paulison appears in the Appendix on page 
73.
---------------------------------------------------------------------------
    Mr. Paulison. It is available online. They can go on our 
website and download that. All the information is there also. 
Everything that is in that book is also on our website, and we 
do advertise that.
    Senator Coleman. Is there a plan to get it in public 
libraries, local schools, things of that nature?
    Mr. Paulison. We have a group, the Citizen Corps Group, 
that does a lot of this for us. It distributes this. Putting it 
in public libraries is probably not a bad suggestion. I will 
look at that.
    Senator Coleman. Great. Thank you. Thank you, Mr. Chairman.
    Chairman Lieberman. Thanks, Senator Coleman, for your 
contribution to the hearing.
    As you know, when Hurricane Katrina hit, FEMA did not have 
technical assistance contracts in place for the provision of 
housing-related needs. After the storm hit, the agency then 
rushed around and entered into four large non-competitive 
contracts with the Fluor Corporation, Shaw Group, Bechtel, and 
CH2M. In October 2005, when you came before the Committee, you 
pledged that you would compete the requirements covered by the 
four large contracts. My staff tells me that FEMA did award new 
contracts for maintenance and deactivation of trailers in April 
of last year, but that the agency also continued to use the 
four large non-competitive contracts until recently, when a 
competition for new technical assistance contracts was carried 
out.
    Why did FEMA keep extending the four contracts? And are the 
new technical assistance contracts now in place for the 
hurricane season?
    Mr. Paulison. We did continue to use them for a period of 
time because it did not make sense right in the middle of this 
housing push when we were putting trailers on the ground to try 
to change horses midstream, so to speak.
    However, they have been re-bid. We do have new contracts in 
place. Now there are five instead of four. I made it a policy 
that I do not want no-bid contracts in this agency. We have a 
lot of contracts that we have written ahead of time that we are 
not even using yet--they are on the shelf--so we do not end up 
in that situation trying to write a contract when you really 
need it, where you are really at a disadvantage to get a good 
negotiated deal. So we are putting those in place ahead of 
time.
    We have a couple smaller no-bid contracts that are still 
viable, and we are going to re-bid those as soon as they come 
up. And the only other no-bid contracts that we have is if we 
go into a town and have to put a trailer park up or something, 
a trailer site, there is no reason to bid that. If there is a 
trailer site there, we will go in and lease that from an 
agency. But my philosophy is as it was back in 2005, that 
except for extreme circumstances, we should not be doing no-bid 
contracts.
    Chairman Lieberman. OK. I appreciate that reassurance. You 
kept on those four, as you said, because it did not make sense 
to switch. Even though they were let out non-competitively, 
without bidding, you felt that they were performing under the 
contract, and it did not make sense to stop them in midstream.
    Mr. Paulison. Yes, sir, and they had really gone through 
the bidding process. I did the research after we heard of this. 
They had gone through the bidding process and had gone through 
it to the extent they would have received the bids. What we did 
not have is the opportunity to sit down and negotiate the terms 
of the contracts that I would have necessarily put in there had 
we had the opportunity and more time to do that. Now we have 
done that.
    Chairman Lieberman. I appreciate it. You have talked a lot 
about plans and preparation. I know that DHS has been rewriting 
the National Response Plan, and FEMA, at one point, set for 
itself a goal of June 1 to release it. Recently, you said you 
probably would not be able to finish it by then. Just give us a 
status report--when do you hope to have the National Response 
Plan done?
    Mr. Jackson. We hope to have another version of it done by 
July, and what we have done is listened very carefully to our 
constituents and used this thing called ``common sense.'' The 
current thing is like a telephone book. It is highly 
impenetrable and difficult to understand by people who speak 
regular English. And so what we have heard from every angle is, 
can you make this thing in a shorter compass and a more focused 
and disciplined way speak to the core requirements of the 
National Response Plan? So we are going through one iteration 
here and trying to get it in that sort of form where it is a 
useful tool, it has all the strength and robustness of the 
existing tool. If we had a hurricane or an incident of national 
significance today, we made changes last year to the National 
Response Plan, and they have been promulgated for a year. They 
are there and understood by all. We have a road map of how to 
behave, and now we are trying to get it just a little bit more 
sensible and written in a way that people can use it and train 
to it and understand it at a governor's level, at a mayor's 
level, at the level of a Congressman that needs to understand 
his role in this process, and all the points and process of 
emergency management around the government.
    Senator Coleman. That hierarchy from governor, to mayor, to 
Congressman, was that----
    Mr. Paulison. I think I would have said it differently, 
sir. [Laughter.]
    Mr. Jackson. It is consistent with what the National 
Response Plan invokes, which is to say that all disasters are 
local, and State and local leadership are usually the first on 
the scene.
    Chairman Lieberman. That is good news. I appreciate what 
you have said. It takes me back, if I may, to my own previous 
life as Attorney General of Connecticut when I used to do a 
series called ``The Law in Plain Language,'' so that the people 
could actually understand it. It sounds like you are aiming for 
a National Response Plan in plain language, so I appreciate 
that.
    I do not have any more questions. Do you have any final 
statements you would like to make?
    Mr. Jackson. Sir, I would just say thank you for the 
support this Committee gives to our work and to the Department. 
We rely upon you, and we are grateful for the chance to talk 
further about what we are doing.
    Chairman Lieberman. Glad to do it. I will say again that 
the bottom line, to quote you, Secretary Jackson, ``Is that we 
are not trying to put a smiley face on anything.'' There are 
still things to do that we have not done as well as we want to, 
but I would say that this has been a very reassuring report. It 
is certainly reassuring to me, and I think if the American 
people heard it, it would be reassuring to them, too. It is not 
my business to give you free consulting advice, but I think 
this is such a good story that you ought to ask your 
communications people to see if they could interest some people 
in the media, including television, to come in and do a story 
about how much better DHS and FEMA are prepared for this 
hurricane season than they were prepared before Hurricane 
Katrina because it is a reassuring story.
    I thank you very much. We are going to leave the record 
open for 2 weeks so that Senator Stevens and others who may 
wish to submit questions to the record may do so.
    For now, the hearing is adjourned.
    [Whereupon, at 4:43 p.m., the Committee was adjourned.]
                            A P P E N D I X

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T6608.001

[GRAPHIC] [TIFF OMITTED] T6608.002

[GRAPHIC] [TIFF OMITTED] T6608.003

[GRAPHIC] [TIFF OMITTED] T6608.004

[GRAPHIC] [TIFF OMITTED] T6608.005

[GRAPHIC] [TIFF OMITTED] T6608.006

[GRAPHIC] [TIFF OMITTED] T6608.007

[GRAPHIC] [TIFF OMITTED] T6608.008

[GRAPHIC] [TIFF OMITTED] T6608.009

[GRAPHIC] [TIFF OMITTED] T6608.010

[GRAPHIC] [TIFF OMITTED] T6608.011

[GRAPHIC] [TIFF OMITTED] T6608.012

[GRAPHIC] [TIFF OMITTED] T6608.013

[GRAPHIC] [TIFF OMITTED] T6608.014

[GRAPHIC] [TIFF OMITTED] T6608.015

[GRAPHIC] [TIFF OMITTED] T6608.016

[GRAPHIC] [TIFF OMITTED] T6608.017

[GRAPHIC] [TIFF OMITTED] T6608.018

[GRAPHIC] [TIFF OMITTED] T6608.019

[GRAPHIC] [TIFF OMITTED] T6608.020

[GRAPHIC] [TIFF OMITTED] T6608.021

[GRAPHIC] [TIFF OMITTED] T6608.022

[GRAPHIC] [TIFF OMITTED] T6608.023

[GRAPHIC] [TIFF OMITTED] T6608.024

[GRAPHIC] [TIFF OMITTED] T6608.025

[GRAPHIC] [TIFF OMITTED] T6608.026

[GRAPHIC] [TIFF OMITTED] T6608.027

[GRAPHIC] [TIFF OMITTED] T6608.028

[GRAPHIC] [TIFF OMITTED] T6608.029

[GRAPHIC] [TIFF OMITTED] T6608.030

[GRAPHIC] [TIFF OMITTED] T6608.031

[GRAPHIC] [TIFF OMITTED] T6608.032

[GRAPHIC] [TIFF OMITTED] T6608.033

[GRAPHIC] [TIFF OMITTED] T6608.034

[GRAPHIC] [TIFF OMITTED] T6608.035

[GRAPHIC] [TIFF OMITTED] T6608.036

[GRAPHIC] [TIFF OMITTED] T6608.037

[GRAPHIC] [TIFF OMITTED] T6608.038

[GRAPHIC] [TIFF OMITTED] T6608.039

[GRAPHIC] [TIFF OMITTED] T6608.040

[GRAPHIC] [TIFF OMITTED] T6608.041

[GRAPHIC] [TIFF OMITTED] T6608.230

[GRAPHIC] [TIFF OMITTED] T6608.231

[GRAPHIC] [TIFF OMITTED] T6608.232

[GRAPHIC] [TIFF OMITTED] T6608.233

[GRAPHIC] [TIFF OMITTED] T6608.234

[GRAPHIC] [TIFF OMITTED] T6608.235

[GRAPHIC] [TIFF OMITTED] T6608.236

[GRAPHIC] [TIFF OMITTED] T6608.237

[GRAPHIC] [TIFF OMITTED] T6608.238

[GRAPHIC] [TIFF OMITTED] T6608.239

[GRAPHIC] [TIFF OMITTED] T6608.240

[GRAPHIC] [TIFF OMITTED] T6608.241

[GRAPHIC] [TIFF OMITTED] T6608.242

[GRAPHIC] [TIFF OMITTED] T6608.243

[GRAPHIC] [TIFF OMITTED] T6608.244

[GRAPHIC] [TIFF OMITTED] T6608.245

[GRAPHIC] [TIFF OMITTED] T6608.246

[GRAPHIC] [TIFF OMITTED] T6608.247

[GRAPHIC] [TIFF OMITTED] T6608.248

[GRAPHIC] [TIFF OMITTED] T6608.249

[GRAPHIC] [TIFF OMITTED] T6608.250

[GRAPHIC] [TIFF OMITTED] T6608.251

[GRAPHIC] [TIFF OMITTED] T6608.252

[GRAPHIC] [TIFF OMITTED] T6608.253

[GRAPHIC] [TIFF OMITTED] T6608.254

[GRAPHIC] [TIFF OMITTED] T6608.255

[GRAPHIC] [TIFF OMITTED] T6608.256

[GRAPHIC] [TIFF OMITTED] T6608.257

[GRAPHIC] [TIFF OMITTED] T6608.258

[GRAPHIC] [TIFF OMITTED] T6608.259

[GRAPHIC] [TIFF OMITTED] T6608.260

[GRAPHIC] [TIFF OMITTED] T6608.261

[GRAPHIC] [TIFF OMITTED] T6608.262

[GRAPHIC] [TIFF OMITTED] T6608.042

[GRAPHIC] [TIFF OMITTED] T6608.043

[GRAPHIC] [TIFF OMITTED] T6608.044

[GRAPHIC] [TIFF OMITTED] T6608.045

[GRAPHIC] [TIFF OMITTED] T6608.046

[GRAPHIC] [TIFF OMITTED] T6608.047

[GRAPHIC] [TIFF OMITTED] T6608.048

[GRAPHIC] [TIFF OMITTED] T6608.049

[GRAPHIC] [TIFF OMITTED] T6608.050

[GRAPHIC] [TIFF OMITTED] T6608.051

[GRAPHIC] [TIFF OMITTED] T6608.052

[GRAPHIC] [TIFF OMITTED] T6608.053

[GRAPHIC] [TIFF OMITTED] T6608.054

[GRAPHIC] [TIFF OMITTED] T6608.055

[GRAPHIC] [TIFF OMITTED] T6608.056

[GRAPHIC] [TIFF OMITTED] T6608.057

[GRAPHIC] [TIFF OMITTED] T6608.058

[GRAPHIC] [TIFF OMITTED] T6608.059

[GRAPHIC] [TIFF OMITTED] T6608.060

[GRAPHIC] [TIFF OMITTED] T6608.061

[GRAPHIC] [TIFF OMITTED] T6608.062

[GRAPHIC] [TIFF OMITTED] T6608.063

[GRAPHIC] [TIFF OMITTED] T6608.064

[GRAPHIC] [TIFF OMITTED] T6608.065

[GRAPHIC] [TIFF OMITTED] T6608.066

[GRAPHIC] [TIFF OMITTED] T6608.067

[GRAPHIC] [TIFF OMITTED] T6608.068

[GRAPHIC] [TIFF OMITTED] T6608.069

[GRAPHIC] [TIFF OMITTED] T6608.070

[GRAPHIC] [TIFF OMITTED] T6608.071

[GRAPHIC] [TIFF OMITTED] T6608.072

[GRAPHIC] [TIFF OMITTED] T6608.073

[GRAPHIC] [TIFF OMITTED] T6608.074

[GRAPHIC] [TIFF OMITTED] T6608.075

[GRAPHIC] [TIFF OMITTED] T6608.076

[GRAPHIC] [TIFF OMITTED] T6608.077

[GRAPHIC] [TIFF OMITTED] T6608.078

[GRAPHIC] [TIFF OMITTED] T6608.079

[GRAPHIC] [TIFF OMITTED] T6608.080

[GRAPHIC] [TIFF OMITTED] T6608.081

[GRAPHIC] [TIFF OMITTED] T6608.082

[GRAPHIC] [TIFF OMITTED] T6608.083

[GRAPHIC] [TIFF OMITTED] T6608.084

[GRAPHIC] [TIFF OMITTED] T6608.085

[GRAPHIC] [TIFF OMITTED] T6608.086

[GRAPHIC] [TIFF OMITTED] T6608.087

[GRAPHIC] [TIFF OMITTED] T6608.088

[GRAPHIC] [TIFF OMITTED] T6608.089

[GRAPHIC] [TIFF OMITTED] T6608.090

[GRAPHIC] [TIFF OMITTED] T6608.091

[GRAPHIC] [TIFF OMITTED] T6608.092

[GRAPHIC] [TIFF OMITTED] T6608.093

[GRAPHIC] [TIFF OMITTED] T6608.094

[GRAPHIC] [TIFF OMITTED] T6608.095

[GRAPHIC] [TIFF OMITTED] T6608.096

[GRAPHIC] [TIFF OMITTED] T6608.097

[GRAPHIC] [TIFF OMITTED] T6608.098

[GRAPHIC] [TIFF OMITTED] T6608.099

[GRAPHIC] [TIFF OMITTED] T6608.100

[GRAPHIC] [TIFF OMITTED] T6608.101

[GRAPHIC] [TIFF OMITTED] T6608.102

[GRAPHIC] [TIFF OMITTED] T6608.103

[GRAPHIC] [TIFF OMITTED] T6608.104

[GRAPHIC] [TIFF OMITTED] T6608.105

[GRAPHIC] [TIFF OMITTED] T6608.106

[GRAPHIC] [TIFF OMITTED] T6608.107

[GRAPHIC] [TIFF OMITTED] T6608.108

[GRAPHIC] [TIFF OMITTED] T6608.109

[GRAPHIC] [TIFF OMITTED] T6608.110

[GRAPHIC] [TIFF OMITTED] T6608.111

[GRAPHIC] [TIFF OMITTED] T6608.112

[GRAPHIC] [TIFF OMITTED] T6608.113

[GRAPHIC] [TIFF OMITTED] T6608.114

[GRAPHIC] [TIFF OMITTED] T6608.115

[GRAPHIC] [TIFF OMITTED] T6608.116

[GRAPHIC] [TIFF OMITTED] T6608.117

[GRAPHIC] [TIFF OMITTED] T6608.118

[GRAPHIC] [TIFF OMITTED] T6608.119

[GRAPHIC] [TIFF OMITTED] T6608.120

[GRAPHIC] [TIFF OMITTED] T6608.121

[GRAPHIC] [TIFF OMITTED] T6608.122

[GRAPHIC] [TIFF OMITTED] T6608.123

[GRAPHIC] [TIFF OMITTED] T6608.124

[GRAPHIC] [TIFF OMITTED] T6608.125

[GRAPHIC] [TIFF OMITTED] T6608.126

[GRAPHIC] [TIFF OMITTED] T6608.127

[GRAPHIC] [TIFF OMITTED] T6608.128

[GRAPHIC] [TIFF OMITTED] T6608.129

[GRAPHIC] [TIFF OMITTED] T6608.130

[GRAPHIC] [TIFF OMITTED] T6608.131

[GRAPHIC] [TIFF OMITTED] T6608.132

[GRAPHIC] [TIFF OMITTED] T6608.133

[GRAPHIC] [TIFF OMITTED] T6608.134

[GRAPHIC] [TIFF OMITTED] T6608.135

[GRAPHIC] [TIFF OMITTED] T6608.136

[GRAPHIC] [TIFF OMITTED] T6608.137

[GRAPHIC] [TIFF OMITTED] T6608.138

[GRAPHIC] [TIFF OMITTED] T6608.139

[GRAPHIC] [TIFF OMITTED] T6608.140

[GRAPHIC] [TIFF OMITTED] T6608.141

[GRAPHIC] [TIFF OMITTED] T6608.142

[GRAPHIC] [TIFF OMITTED] T6608.143

[GRAPHIC] [TIFF OMITTED] T6608.144

[GRAPHIC] [TIFF OMITTED] T6608.145

[GRAPHIC] [TIFF OMITTED] T6608.146

[GRAPHIC] [TIFF OMITTED] T6608.147

[GRAPHIC] [TIFF OMITTED] T6608.148

[GRAPHIC] [TIFF OMITTED] T6608.149

[GRAPHIC] [TIFF OMITTED] T6608.150

[GRAPHIC] [TIFF OMITTED] T6608.151

[GRAPHIC] [TIFF OMITTED] T6608.152

[GRAPHIC] [TIFF OMITTED] T6608.153

[GRAPHIC] [TIFF OMITTED] T6608.154

[GRAPHIC] [TIFF OMITTED] T6608.155

[GRAPHIC] [TIFF OMITTED] T6608.156

[GRAPHIC] [TIFF OMITTED] T6608.157

[GRAPHIC] [TIFF OMITTED] T6608.158

[GRAPHIC] [TIFF OMITTED] T6608.159

[GRAPHIC] [TIFF OMITTED] T6608.160

[GRAPHIC] [TIFF OMITTED] T6608.161

[GRAPHIC] [TIFF OMITTED] T6608.162

[GRAPHIC] [TIFF OMITTED] T6608.163

[GRAPHIC] [TIFF OMITTED] T6608.164

[GRAPHIC] [TIFF OMITTED] T6608.165

[GRAPHIC] [TIFF OMITTED] T6608.166

[GRAPHIC] [TIFF OMITTED] T6608.167

[GRAPHIC] [TIFF OMITTED] T6608.168

[GRAPHIC] [TIFF OMITTED] T6608.169

[GRAPHIC] [TIFF OMITTED] T6608.170

[GRAPHIC] [TIFF OMITTED] T6608.171

[GRAPHIC] [TIFF OMITTED] T6608.172

[GRAPHIC] [TIFF OMITTED] T6608.173

[GRAPHIC] [TIFF OMITTED] T6608.174

[GRAPHIC] [TIFF OMITTED] T6608.175

[GRAPHIC] [TIFF OMITTED] T6608.176

[GRAPHIC] [TIFF OMITTED] T6608.177

[GRAPHIC] [TIFF OMITTED] T6608.178

[GRAPHIC] [TIFF OMITTED] T6608.179

[GRAPHIC] [TIFF OMITTED] T6608.180

[GRAPHIC] [TIFF OMITTED] T6608.181

[GRAPHIC] [TIFF OMITTED] T6608.182

[GRAPHIC] [TIFF OMITTED] T6608.183

[GRAPHIC] [TIFF OMITTED] T6608.184

[GRAPHIC] [TIFF OMITTED] T6608.185

[GRAPHIC] [TIFF OMITTED] T6608.186

[GRAPHIC] [TIFF OMITTED] T6608.187

[GRAPHIC] [TIFF OMITTED] T6608.188

[GRAPHIC] [TIFF OMITTED] T6608.189

[GRAPHIC] [TIFF OMITTED] T6608.190

[GRAPHIC] [TIFF OMITTED] T6608.191

[GRAPHIC] [TIFF OMITTED] T6608.192

[GRAPHIC] [TIFF OMITTED] T6608.193

[GRAPHIC] [TIFF OMITTED] T6608.194

[GRAPHIC] [TIFF OMITTED] T6608.195

[GRAPHIC] [TIFF OMITTED] T6608.196

[GRAPHIC] [TIFF OMITTED] T6608.197

[GRAPHIC] [TIFF OMITTED] T6608.198

[GRAPHIC] [TIFF OMITTED] T6608.199

[GRAPHIC] [TIFF OMITTED] T6608.200

[GRAPHIC] [TIFF OMITTED] T6608.201

[GRAPHIC] [TIFF OMITTED] T6608.202

[GRAPHIC] [TIFF OMITTED] T6608.203

[GRAPHIC] [TIFF OMITTED] T6608.204

[GRAPHIC] [TIFF OMITTED] T6608.205

[GRAPHIC] [TIFF OMITTED] T6608.206

[GRAPHIC] [TIFF OMITTED] T6608.207

[GRAPHIC] [TIFF OMITTED] T6608.208

[GRAPHIC] [TIFF OMITTED] T6608.209

[GRAPHIC] [TIFF OMITTED] T6608.210

[GRAPHIC] [TIFF OMITTED] T6608.211

[GRAPHIC] [TIFF OMITTED] T6608.212

[GRAPHIC] [TIFF OMITTED] T6608.213

[GRAPHIC] [TIFF OMITTED] T6608.214

[GRAPHIC] [TIFF OMITTED] T6608.215

[GRAPHIC] [TIFF OMITTED] T6608.216

[GRAPHIC] [TIFF OMITTED] T6608.217

[GRAPHIC] [TIFF OMITTED] T6608.218

[GRAPHIC] [TIFF OMITTED] T6608.219

[GRAPHIC] [TIFF OMITTED] T6608.220

[GRAPHIC] [TIFF OMITTED] T6608.221

[GRAPHIC] [TIFF OMITTED] T6608.222

[GRAPHIC] [TIFF OMITTED] T6608.223

[GRAPHIC] [TIFF OMITTED] T6608.224

[GRAPHIC] [TIFF OMITTED] T6608.225

[GRAPHIC] [TIFF OMITTED] T6608.226

[GRAPHIC] [TIFF OMITTED] T6608.227

[GRAPHIC] [TIFF OMITTED] T6608.228

[GRAPHIC] [TIFF OMITTED] T6608.229

                                 <all>

</pre></body></html>
